TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Accuracy of Volunteer Tax Returns
                 Continues to Improve, but Better Controls
                Are Needed to Ensure Consistent Application
                       of Procedures and Processes



                                      September 18, 2008

                              Reference Number: 2008-40-177




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 18, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Accuracy of Volunteer Tax Returns Continues to
                              Improve, but Better Controls Are Needed to Ensure Consistent
                              Application of Procedures and Processes (Audit # 200840010)

 This report presents the results of our review to determine whether taxpayers receive quality
 service, including the accurate preparation of their income tax returns, when visiting Internal
 Revenue Service (IRS) Volunteer Program1 sites. We also determined whether the IRS makes
 adequate efforts to ensure the integrity of the volunteers participating in the Volunteer Program.
 This audit is a followup to prior Treasury Inspector General for Tax Administration reviews and
 is part of our Fiscal Year 2008 Annual Audit Plan.2

 Impact on the Taxpayer
 The Volunteer Program plays an increasingly important role in achieving the IRS’ goal of
 improving taxpayer service and facilitating participation in the tax system. It provides no-cost
 Federal tax return preparation and electronic filing directed toward underserved segments of
 individual taxpayers, including low-income to moderate-income, elderly, disabled, and
 limited-English-proficient taxpayers. Although accuracy rates for tax returns prepared by
 volunteers have increased from those in prior years, the quality assurance process is still not
 consistently followed. Incorrectly prepared tax returns can increase the risk of taxpayers
 receiving erroneous tax refunds by not receiving credits to which they are entitled or receiving
 additional credits for which they do not qualify.


 1
   Includes the Volunteer Income Tax Assistance and Tax Counseling for the Elderly Programs. During this review,
 the Tax Counseling for the Elderly sites we visited were those sponsored by the AARP (formerly the American
 Association of Retired Persons).
 2
   See Appendix VIII for a list of these prior reports.
                       Accuracy of Volunteer Tax Returns Continues to Improve, but
                       Better Controls Are Needed to Ensure Consistent Application
                                       of Procedures and Processes



Synopsis
Our reviews over the last five filing seasons3 have determined that accuracy rates for tax returns
prepared at Volunteer Program sites have continued to increase and improvements have been
made to the oversight of the Volunteer Program. However, to ensure sustained success in the
Volunteer Program, the IRS must continue to focus on improving the quality of the tax return
preparation process.
Of the 36 tax returns prepared for our auditors by Volunteer Income Tax Assistance and Tax
Counseling for the Elderly sites in the 2008 Filing Season, 11 (31 percent) were prepared
incorrectly. If 9 of these incorrectly prepared tax returns had been filed, taxpayers would not
have received almost $4,700 in tax refunds to
which they were entitled. Alternatively, if the
remaining 2 incorrectly prepared tax returns had        Accuracy rates of tax returns prepared
been filed, the IRS would have incorrectly                  for our auditors increased from
refunded almost $6,000.                                  0 percent in the 2004 Filing Season to
                                                                   69 percent in the 2008 Filing Season.
Since the 2004 Filing Season, we have reported
that volunteers are not following required
procedures designed to assist in the accurate preparation of tax returns. During the 2008 Filing
Season, some volunteers did not consistently use the required intake and interview process or
perform a quality review to ensure that an accurate tax return was prepared.
For the 11 tax returns incorrectly prepared, 1 or more requirements were not followed. For
example:
       •   For 1 return (9 percent), the volunteer did not use an intake sheet when preparing the tax
           return.
       •   For 3 returns (27 percent), the volunteers did not correctly prepare the intake sheet.
       •   For 3 returns (27 percent), the sites had no quality review process.
       •   For 3 returns (27 percent) that were quality reviewed, the volunteers did not use a quality
           review checksheet.
Improvements are also needed to the Return Reviews used to monitor Program effectiveness.
Return Reviews are unannounced IRS visits to volunteer sites to evaluate tax law and tax return
accuracy. Test results showed that quality review procedures were not consistently followed
from site to site. In addition, our review of 91 Return Review cases showed that 43 (47 percent)
had missing or illegible documents. Therefore, we could not validate the accuracy of those tax


3
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                                        2
                    Accuracy of Volunteer Tax Returns Continues to Improve, but
                    Better Controls Are Needed to Ensure Consistent Application
                                    of Procedures and Processes


returns. In addition, of the 91 cases sampled, only 19 (21 percent) included the most recent
version of the Quality Return Review Sheet (Form 6729C).
The Stakeholder Partnerships, Education, and Communication (SPEC) function continues to
show a commitment to improving the Volunteer Program return preparation process to ensure
the accurate preparation of tax returns. Accurate tax return preparation establishes credibility
and validates the integrity of the Program and its volunteers. The IRS also has application
processes and procedures in place to ensure that volunteer applicants meet certain criteria and are
trained. However, these steps and processes do not ensure the integrity of volunteers, even
though the volunteers have access to taxpayers’ personal identifiable information such as Social
Security Numbers, driver licenses, and home addresses.
Finally, some volunteer sites offer Refund Anticipation Loans (RAL or Loan).4 However, little
oversight for these Loans is offered through the Volunteer Program. The IRS could not provide
the number of Volunteer Program sites or a list of sites that offer RALs. In addition, the
Program volunteers cannot input RAL indicators on taxpayer accounts for those who applied or
obtained the Loans, which is a requirement for commercial tax preparation companies.

Recommendations
We recommended that the Commissioner, Wage and Investment Division, 1) require that the
Return Review process be well documented so that external reviews can be conducted and
results can be measured, 2) ensure that all Volunteer Agreement Standards of Conduct –
VITA/TCE5 Programs (Form 13615) are signed and dated by volunteers prior to the start of their
service, and 3) revise Form 13615 to include a question to determine whether the applicant has
been convicted of a crime, have the applicant sign the Form under the penalty of perjury, and
conduct a study to evaluate the applicability and feasibility of standards used by other volunteer
organizations.
We also recommended that the Commissioner, Wage and Investment Division, 4) include a
requirement in the Volunteer Program Sponsor Agreement (Form 13533) that applicants
document whether they will be offering RALs, including details of the Loans offered, 5) ensure
that volunteers are able to input the RAL indicator when transmitting the tax returns to the IRS
and that the indicator is included on the management information system used to control the
Volunteer Program, and 6) include a review of RALs in site visits to ensure that the Loans are
being offered and filed consistently with written guidance issued by the IRS.


4
  RALs are short-term loans provided to taxpayers in anticipation of their current year Federal income tax refunds.
The IRS stated that the RALs offered by Volunteer Program partners are lower in fees and interest than RALs
offered through commercial tax preparation services.
5
  VITA – Volunteer Income Tax Assistance. TCE – Tax Counseling for the Elderly.
                                                                                                                      3
                 Accuracy of Volunteer Tax Returns Continues to Improve, but
                 Better Controls Are Needed to Ensure Consistent Application
                                 of Procedures and Processes



Response
IRS management agreed with four of our six recommendations, partially agreed with one
(Recommendation 3), and disagreed with one (Recommendation 5). Concerning the six
recommendations:
1) The SPEC function will implement a Centralized Return Review Cadre during the
   2009 Filing Season to ensure that consistent quality reviews are performed and will
   implement procedures to ensure that the Return Review process is well documented.
2) The SPEC function will place appropriate emphasis on volunteers signing and dating
   Form 13615 prior to the start of their service.
3) The SPEC function will not immediately revise Form 13615. However, it will discuss this
   issue with its partners (volunteer organizations) because the volunteers supporting Volunteer
   Income Tax Assistance and Tax Counseling for the Elderly Programs work for them and not
   directly for the IRS.
4) The SPEC function will add a question to Form 13533 to identify other products and services
   being offered by volunteer sites and will obtain this information from new sites when they
   complete a Form 13533. It will include a similar question in the site review process with
   respect to existing partners. If RALs are offered, the SPEC function will request information
   from the partner regarding the fees, interest rate charged, financial institution(s) involved,
   and marketing products/strategies.
5) The IRS did not agree with the recommendation, stating that if the SPEC function turned on
   the RAL indicator in the commercial software used by volunteers to prepare tax returns, the
   downstream impact to partners and their established processes might be negative. The IRS
   software contract would have to be modified because activation of the RAL indicator is
   precluded by the current contract. Activating the RAL indicator would result in additional
   costs. All of these factors must be thoroughly investigated and analyzed and any risks must
   be identified before the IRS can determine whether this action will provide the desired
   results. However, the SPEC function will request changes to its management information
   system to add a field that can be used to identify sites offering RALs.
6) The IRS agreed that it should monitor preparers, including volunteer preparers, offering
   RALs or similar bank products to ensure their compliance with IRS regulations and
   procedures. However, it believes that this should be accomplished within the parameters of
   existing oversight programs in its Small Business/Self-Employed Division.
Management’s complete response to the draft report is included as Appendix IX.




                                                                                                 4
                 Accuracy of Volunteer Tax Returns Continues to Improve, but
                 Better Controls Are Needed to Ensure Consistent Application
                                 of Procedures and Processes



Office of Audit Comment
IRS management disagreed with Recommendation 5 that the SPEC function should ensure that
volunteers are able to input the RAL indicator, citing a variety of procedural and other issues.
We agree that the IRS needs to consider the additional costs and investigate further before
making a final determination. However, the IRS currently cannot determine which sites offer
RALs or the number of--and/or which-- taxpayers visit volunteer sites to obtain RALs. This is
necessary to determine the effect of RALs on the Volunteer Program and to ensure that all
procedures and regulations are followed.
Although the IRS agreed with Recommendation 6, it stated that overseeing the volunteers
offering RALs would be accomplished within the parameters of an existing program in the Small
Business/Self-Employed Division. We will follow up on this action during the 2009 Filing
Season audit of the Volunteer Program.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                   5
                        Accuracy of Volunteer Tax Returns Continues to Improve, but
                        Better Controls Are Needed to Ensure Consistent Application
                                        of Procedures and Processes




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Accuracy Rates Have Increased Significantly; However, the Quality
          Assurance Process Is Still Not Consistently Followed .................................Page 5
          Improvements Are Needed to the Return Reviews Used to
          Monitor Program Effectiveness ....................................................................Page 10
                    Recommendation 1:........................................................Page 11

          Current Procedures Need to Be Strengthened to Ensure the
          Integrity of the Volunteers ............................................................................Page 11
                    Recommendations 2 and 3: ..............................................Page 13

          Some Volunteer Program Sites Offer Refund Anticipation Loans to
          Taxpayers......................................................................................................Page 13
                    Recommendation 4:........................................................Page 14

                    Recommendations 5 and 6: ..............................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – General Characteristics of Tax Year 2006 Tax Returns
          Prepared by the Volunteer Program..............................................................Page 21
          Appendix V – Cities and States Visited to Have Tax Returns Prepared ......Page 24
          Appendix VI – Results of Tax Returns Incorrectly Prepared at
          Volunteer Program Sites ...............................................................................Page 25
          Appendix VII – Accuracy of Eligibility Determinations..............................Page 26
          Accuracy of Volunteer Tax Returns Continues to Improve, but
          Better Controls Are Needed to Ensure Consistent Application
                          of Procedures and Processes



Appendix VIII – Treasury Inspector General for Tax Administration
Audit Reports on the Volunteer Return Preparation Program ......................Page 27
Appendix IX – Management’s Response to the Draft Report ......................Page 28
                   Accuracy of Volunteer Tax Returns Continues to Improve, but
                   Better Controls Are Needed to Ensure Consistent Application
                                   of Procedures and Processes




                                   Abbreviations

e-file, e-filing            Electronic Filing
IRS                         Internal Revenue Service
RAL                         Refund Anticipation Loan
SPEC                        Stakeholder Partnerships, Education, and Communication
TCE                         Tax Counseling for the Elderly
VITA                        Volunteer Income Tax Assistance
                    Accuracy of Volunteer Tax Returns Continues to Improve, but
                    Better Controls Are Needed to Ensure Consistent Application
                                    of Procedures and Processes




                                           Background

The Internal Revenue Service (IRS) Volunteer Income Tax Assistance (VITA) Program was
originated in 1969 due to enactment of the Tax Reform Act of 19691 and an increased emphasis
on taxpayer education programs. The IRS has placed continual emphasis on expanding the
VITA Program through increased recruitment of social service, nonprofit, corporate, financial,
educational, and government organizations; involvement of the military on a national level; and
expansion of assistance provided to the limited-English-proficient community.
The Tax Counseling for the Elderly (TCE) Program
provides free tax help to people age 60 and older. The
Revenue Act of 19782 authorized the IRS to enter into               Accurately prepared tax
agreements with private or nongovernmental, public,                    returns establish
nonprofit agencies and organizations to provide training and         credibility in and the
                                                                   integrity of the Volunteer
technical assistance to volunteers who provide free tax                     Program.
counseling and assistance to elderly individuals in the
preparation of their Federal income tax returns. The law
authorizes an appropriation of special funds, in the form of
grants, to provide tax assistance to persons age 60 and older. The IRS receives the funds as a
line item in the budget appropriation. The total funds are distributed to the sponsors3 for their
expenses.
The IRS Volunteer Program includes VITA sites operated in partnership with the military and
with various community-based organizations,4 as well as sites operated by the TCE Program and
the AARP. The IRS Stakeholder Partnerships, Education, and Communication (SPEC) function
is responsible for providing oversight for the Volunteer Program, which includes determining
policies and procedures, developing products and training material, and monitoring and
managing Volunteer Program activity. The SPEC function’s concept of operations includes
looking for opportunities to assist third parties to help taxpayers understand and meet their tax
obligations by promoting collaboration among tax practitioners, commercial preparers, and
community-based partners to support the volunteer return preparation program.




1
  Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
2
  Pub. L. No. 95-600, 92 Stat. 2810.
3
  A sponsor would be an entity similar to the AARP (formerly the American Association of Retired Persons).
4
  Some community-based VITA sites are located in buildings occupied by one or more IRS offices.
                                                                                                         Page 1
                    Accuracy of Volunteer Tax Returns Continues to Improve, but
                    Better Controls Are Needed to Ensure Consistent Application
                                    of Procedures and Processes



This audit included an assessment of tax returns prepared at community-based VITA sites and
TCE sites sponsored by the AARP. During the 2007 Filing Season,5 these sites were involved in
the preparation of 2,117,8016 tax returns. Figure 1 provides a breakdown of the Volunteer
Program and the volumes of tax returns prepared during the 2007 Filing Season.
                        Figure 1: Tax Year 2006 Tax Returns Prepared
                                  by the Volunteer Program

                                                                 Volume of Tax
                 Type of Volunteer Program                      Returns Prepared           Percentage
        VITA                                                          807,793               32.84%
        Military VITA                                                 267,976               10.90%
        Colocated VITA*                                                26,168                1.06%
        TCE (Non-AARP)                                                 50,821                2.07%
        TCE (AARP)                                                  1,283,840               52.19%
        Other**                                                        23,153                0.94%
        Totals:                                                    2,459,751              100.00%
      Source: Our analysis of data retrieved from the IRS management information system containing
      Tax Year 2006 filing information. We validated these data by accessing selected taxpayer accounts.
      * = Community-based VITA sites that are located in buildings occupied by one or more IRS offices.
      ** = At the time of our data analysis, some data had invalid site codes that were categorized as “Other.”

The Volunteer Program plays an increasingly important role in achieving the IRS’ goal of
improving taxpayer service and facilitating participation in the tax system. It provides no-cost
Federal tax return preparation and electronic filing (e-filing) directed toward underserved
segments of individual taxpayers, including low-income to moderate-income, elderly, disabled,
and limited-English-proficient taxpayers. These taxpayers frequently are involved in complex
family situations that make it difficult to correctly understand and apply the tax law.
In addition, some of the volunteer sites offer Refund Anticipation Loans (RAL or Loan) as a
low-cost alternative to traditional RALs. A RAL is a short-term loan provided to a taxpayer in
anticipation of his or her current year Federal income tax refund. It is a contract between the
taxpayer and a lender, and the IRS is not involved in this contract. The IRS stated that the Loans
offered by Volunteer Program partners are lower in fees and interest than those offered through
commercial tax preparation services.



5
  The 2007 Filing Season relates to the processing of Tax Year 2006 tax returns. The filing season is the period
from January through mid-April when most individual income tax returns are filed.
6
  Total of 833,961 completed at community-based VITA sites and 1,283,840 completed at AARP-sponsored sites.
                                                                                                           Page 2
                 Accuracy of Volunteer Tax Returns Continues to Improve, but
                 Better Controls Are Needed to Ensure Consistent Application
                                 of Procedures and Processes



The IRS is establishing a Community VITA Grant Program that will provide direct funds to
enable the IRS to extend its Volunteer Program and services to underserved populations and
hardest-to-reach areas, along with increasing the capacity to file returns electronically, heighten
quality control, enhance volunteer training, and continue to improve the accuracy rate of returns
prepared by VITA Program sites. The Community VITA Grant Program will allow the IRS to
further expand the Volunteer Program while continuing its focus on improving tax return
accuracy. The Volunteer Program’s growth and success demonstrate both community
commitment to providing services to the underserved and the tremendous need for such services.

Tax scenarios used by auditors reflected characteristics of taxpayers who seek
assistance from the Volunteer Program
To ensure that the 2 tax scenarios used in this review reflected the characteristics of taxpayers
who seek assistance from the Volunteer Program, we developed the scenarios based on tax filing
characteristics of the 1,260,624 individuals who used community-based VITA sites and those
under age 60 who used AARP sites to have their Tax Year 2006 tax returns prepared. These
taxpayers had average earnings of $17,856.31 (community-based VITA sites) and $22,080.96
(AARP-sponsored sites). Appendix IV provides additional key characteristics of these
individuals.
Further, we designed the scenarios to include tax law topics that assessed the volunteers’ use
of the tools the SPEC function had created to ensure that accurate tax returns are prepared. The
two scenarios together included tax topics related to five of the six credits taxpayers most
often claimed on the Tax Year 2006 returns prepared by community-based VITA and
AARP-sponsored sites. The dollar amount of these 5 credits represented more than 57 percent
(approximately $855 million) of the $1.5 billion in refunds shown on the tax returns for these
taxpayers. Taxpayers whose tax returns include 1 or more of the 5 credits in our scenarios
accounted for 811,094 (38 percent) of the 2,117,801 tax returns prepared, based on our analysis
of all Tax Year 2006 volunteer-prepared tax returns. The two scenarios developed for this
review were:
Scenario 1 – The taxpayer was divorced and lived with his or her 8-year-old child. The taxpayer
had the same job working as a clerk throughout 2007. Wages reported on the Wage and Tax
Statement (Form W-2) totaled $28,732. The taxpayer was paid bi-weekly and contributed to a
401(k) retirement plan. The taxpayer received a statement of Interest Income (Form 1099-INT)
totaling $42.13, received $400 a month for child support, had dependent care expenses totaling
$1,352, and contributed $1,253 to a 401(k) retirement plan.
An accurately prepared tax return would result in the taxpayer receiving a refund of $2,218. The
tax return preparer would have correctly determined that the taxpayer’s filing status was Head of
Household and the dependency exemption could be claimed. In addition, the taxpayer qualified
for an Earned Income Tax Credit of $714, a Child Tax Credit of $1,000, a Child and Dependent
Care Credit of $379, and a Retirement Savings Contributions Credit of $125.

                                                                                            Page 3
                   Accuracy of Volunteer Tax Returns Continues to Improve, but
                   Better Controls Are Needed to Ensure Consistent Application
                                   of Procedures and Processes



Scenario 2 – The taxpayer was single, had never been married, and lived with his or her sister.
The taxpayer had two children, ages 7 and 9, who lived with the taxpayer in the home of the
taxpayer’s sister during school vacations, including the months of June, July, and August
(summer). The children lived with the other parent during the school year. The taxpayer worked
a part-time evening job as a clerk and was paid $16,435. The taxpayer’s sister earned $48,000
in 2007. The taxpayer received a Form 1099-INT totaling $26.35. The taxpayer attended
college part time, and the cost was paid by the taxpayer’s sister.
An accurately prepared tax return would result in the taxpayer receiving a refund of $98. The
preparer would have correctly determined that the taxpayer’s filing status was Single. Because
the taxpayer did not provide more than one-half of the support for the children, he or she could
not claim the children as dependents for Child Tax Credit purposes. The Earned Income Tax
Credit would not be available to the taxpayer because earned income exceeded the maximum
allowable amount and because the children did not live with the taxpayer for more than one-half
of the year.
This review was performed at the IRS Customer Assistance, Relationships, and Education
function in the Wage and Investment Division Headquarters in Atlanta, Georgia, during the
period December 2007 through May 2008. In addition, from February through April 2008,
Treasury Inspector General for Tax Administration auditors performed 36 anonymous visits
(called shopping) and had 36 tax returns7 prepared at 36 judgmentally selected Volunteer
Program sites located in 12 States. Appendix V provides a list of the 12 States and the specific
cities where the sites were located. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




7
  Of the 36 tax returns, 12 were prepared at AARP-sponsored sites and 24 were prepared at community-based VITA
sites.
                                                                                                       Page 4
                                                    Accuracy of Volunteer Tax Returns Continues to Improve, but
                                                    Better Controls Are Needed to Ensure Consistent Application
                                                                    of Procedures and Processes




                                                                       Results of Review

Accuracy Rates Have Increased Significantly; However, the Quality
Assurance Process Is Still Not Consistently Followed
Accuracy rates for tax returns prepared at Volunteer Program sites have continued to increase
over the last five filing seasons.8 Figure 2 shows that accuracy rates of tax returns prepared for
our auditors have increased from 0 percent in the 2004 Filing Season to 69 percent in the
2008 Filing Season.
                                                         Figure 2: Overall Tax Return Accuracy Rates
                                                               for the 2004-2008 Filing Seasons
                 Prepared Accurately (Percentage)
                 Accuracy Rate Total Tax Returns




                                                    80
                                                    70                                                                  69
                                                                                                       56
                                                    60
                                                    50
                                                                                         39
                                                    40                      34
                                                    30
                                                    20
                                                    10       0
                                                     0
                                                         2004 Filing    2005 Filing   2006 Filing   2007 Filing   2008 Filing
                                                          Season         Season        Season        Season        Season
                                                                                        Accuracy Rate

              Source: Tax returns prepared for our auditors by volunteers for the 2004-2008 Filing Seasons.

Since the 2004 Filing Season, we have reported that VITA site volunteers are not following
required procedures designed to assist in the accurate preparation of tax returns. During the
2008 Filing Season, some volunteers did not consistently use the required intake and interview
process, including completion of the IRS Intake and Interview Sheet (Form 13614) or another
IRS-approved intake sheet, or perform a quality review to ensure that an accurate tax return was
prepared.
Of the 36 tax returns we had prepared for the 2008 Filing Season, 11 (31 percent) were prepared
incorrectly (69 percent accuracy rate). If 9 of these incorrectly prepared tax returns had been
filed, taxpayers would not have received almost $4,700 in tax refunds to which they were

8
    Prior audits included only community-based VITA sites.
                                                                                                                                Page 5
                           Accuracy of Volunteer Tax Returns Continues to Improve, but
                           Better Controls Are Needed to Ensure Consistent Application
                                           of Procedures and Processes



entitled. Specific credits not received included the Child Tax Credit, Additional Child Tax
Credit, Child and Dependent Care Credit, Earned Income Tax Credit, and Retirement Savings
Contributions Credit. Alternatively, if the remaining 2 incorrectly prepared tax returns had been
filed, the IRS would have refunded almost $6,000 incorrectly. Overstated refunds resulted from
taxpayers incorrectly receiving the Child Tax Credit and Additional Child Tax Credit,
dependency exemption, Child and Dependent Care Credit, and/or Earned Income Tax Credit.9
Figure 3 shows a 5-year trend analysis of tax law accuracy at Volunteer Program sites for the tax
law topics included in our 2 scenarios.
                      Figure 3: Comparison of Tax Law Accuracy Rates for the
                                   2004-2008 Filing Seasons10

                               100                                              97
           Accuracy Rate




                                                                                                       94                     94
            (Percentage)




                                80                   85 86                                        87                     82
                                           74                              74             77 81             77
                                                              69 66
                                60              61
                                                                      56                                         54 53
                                40
                                      37
                                20                                                   20
                                 0
                                     Earned Income           Child T ax Credit       Filing Status          Dependents
                                       T ax Credit
                                                                 Tax Law Topics

                                     2004 Filing Season               2005 Filing Season           2006 Filing Season
                                     2007 Filing Season               2008 Filing Season


           Source: Tax returns prepared for our auditors by volunteers during the 2004-2008 Filing Seasons.

Furthermore, the IRS conducts its own shopping reviews. During the 2008 Filing Season, the
IRS performed 85 shopping reviews that showed 64 (75 percent) tax returns were prepared
accurately.

The SPEC function has continued to improve its oversight of the Volunteer
Program
Accuracy rates have improved significantly with the continued and consistent application of the
Volunteer Return Preparation Program-Quality Improvement Process. The SPEC function made


9
  Appendix VI presents details of these results. Appendix VII presents results by tax scenario.
10
  Only tax law topics included in prior followup reviews and this review are included in this comparison
(see Appendix VII for a complete list of tax topics addressed in this review).

                                                                                                                                   Page 6
                 Accuracy of Volunteer Tax Returns Continues to Improve, but
                 Better Controls Are Needed to Ensure Consistent Application
                                 of Procedures and Processes



significant improvements to the Volunteer Program for the 2008 Filing Season. It removed the
word “minimum” from the Quality Site Requirements because there is no minimum in quality.
The Quality Site Requirements include key aspects of the intake and interview process, reference
materials, and quality review process. For example, all sites must:
   •   Use an intake and interview process that includes correctly using an IRS-approved intake
       and interview sheet for every tax return prepared.
   •   Have Volunteer Resource Guide (Publication 4012) and Your Federal Income Tax
       (Publication 17) available for use by every volunteer return preparer and quality
       reviewer.
   •   Use a quality review process, which includes a 100 percent review of all returns. This
       process must include the use of an approved quality review checksheet for every tax
       return.
The IRS continues its commitment to providing top-quality service to all taxpayers who visit
Volunteer Program sites, especially low-income to moderate-income, elderly, disabled, and
limited-English-proficient taxpayers. Partner organizations and their volunteers are the most
valuable resources within the IRS tax return preparation program. The Quality Site
Requirements were developed to ensure that VITA and TCE Program sites have a consistent
operation in each site. The SPEC function is responsible for providing partners, volunteer site
coordinators, and volunteers with the tools and support necessary to comply with each quality
requirement. The quality focus is on improving the return preparation process to result in
accurate returns. This commitment to accurate return preparation establishes credibility and
validates the integrity of the Program and its volunteers.

Some volunteers are still not adhering to required procedures for the accurate
preparation of all tax returns
Although our shopping accuracy rate increased significantly from those in prior years, some
volunteers are not following all Quality Site Requirements. For each of the 11 tax returns
prepared incorrectly, 1 or more elements of the
Requirements were not followed. For example:
                                                                 In the Volunteer Program, an
   •   For 1 tax return (9 percent), the volunteer did not        accurate return is the most
       use an intake sheet when preparing the tax               important aspect of providing
                                                                quality service to the taxpayer.
       return.
   •   For 3 tax returns (27 percent), the volunteers did
       not correctly prepare the intake sheet.
   •   For 3 tax returns (27 percent), the sites had no quality review process.



                                                                                            Page 7
                  Accuracy of Volunteer Tax Returns Continues to Improve, but
                  Better Controls Are Needed to Ensure Consistent Application
                                  of Procedures and Processes



   •    For 3 tax returns (27 percent) that were quality reviewed, the volunteers did not use a
        quality review checksheet.
Quality service and accurate return preparation start with the volunteer asking the taxpayer the
right questions. Form 13614 assists the volunteer by ensuring that the right questions are asked
during the interview with the taxpayer. All volunteers must complete and use Form 13614 to
prepare each tax return. All quality reviewers must use the Form with the supporting documents
during the quality review. The intake and interview process must include the following at a
minimum:
   •    An interview with the taxpayer that includes explaining the tax return preparation process
        and encouraging him or her to ask questions throughout the interview process.
   •    Completion of Form 13614 or an IRS-approved, partner-developed form asking the
        questions listed on Form 13614 or similar questions that will provide the same
        information.
   •    Confirmation of the taxpayer’s responses provided on the Form 13614 (or similar form).
   •    Use of probing questions to ensure that complete information is gathered.
   •    Review of all supporting documentation and confirmation with the taxpayer that all
        income was discussed and noted on the Form 13614 to ensure that it will be included on
        the tax return.
The purpose of the quality review is to ensure that the taxpayer’s tax return is accurate based on
the supporting documents provided by the taxpayer and the intake and interview sheet. One of
the Quality Site Requirements is to have a quality review process in place and ensure that it is
being used at every site on every return. A quality review process includes:
    •   The taxpayer’s participation.
    •   Completion of a standardized quality review checksheet, either the Quality Review Sheet
        [Form 8158 (EN/SP)] or an IRS-approved, partner-developed quality review checksheet
        containing the same information as that listed on Form 8158 (EN/SP).
    •   Use of the available supporting documents to confirm identity, income, expenses, and
        credits on the tax return.
A tax return is accurate when the tax law is applied correctly and the return is free from error
based on the taxpayer interview and all supporting documentation. If a Volunteer Program site is
not in compliance with a particular aspect of the Quality Site Requirements, the SPEC function’s
primary goal is to work with the partner and the site to assist them in becoming compliant as
soon as possible. Any remedy offered should provide the assistance and support necessary to
bring the site into compliance with the Quality Site Requirements. This might include


                                                                                            Page 8
                    Accuracy of Volunteer Tax Returns Continues to Improve, but
                    Better Controls Are Needed to Ensure Consistent Application
                                    of Procedures and Processes



discussions, counseling, and/or mentoring assistance with the site within a reasonable period.
Withdrawing IRS support from a site should be the last resort.11
During this audit, we provided SPEC function management with observations from our
anonymous visits, including specific examples of noncompliance with Quality Site
Requirements. Based on our feedback, SPEC function management contacted representatives
from the sites to discuss the issues and requested that corrective actions be taken. They also
completed followup actions by elevating the issues to be addressed with the partners.
Site coordinators are volunteers who provide coordination, organization, and supervision for all
aspects of a Volunteer Program site. They play a critical role in the quality at the individual
sites. They also greatly influence whether volunteers follow and implement the Quality Site
Requirements. Information provided to us during discussions with site coordinators and
volunteers associated with the sites that did not perform a quality review or use a quality review
checksheet included the following: 1) the site discontinued using the checksheet during the
filing season, 2) the volunteers know what information to review when performing a quality
review so a quality review checksheet is not needed, or 3) the site eliminated the entire quality
review process due to a staff shortage.
The SPEC function also conducted 85 shopping visits during the 2008 Filing Season as part
of its quality review program
The SPEC function results confirm that some Volunteer Program sites are not consistently
complying with the Quality Site Requirements. Observations from these shopping visits showed
that:
     •   15 percent of the sites did not use the required intake and interview sheet during tax
         return preparation.
     •   65 percent of the sites did not use the required quality review process.
In addition, 12 (33 percent) of the 36 sites we visited did not prepare an intake and interview
sheet correctly, and 3 (8 percent) did not prepare one at all. Eleven (31 percent) did not perform
the required quality review on the prepared tax returns.12




11
   IRS support includes software, computers, printers, financial assistance, grants, and VITA and TCE Program logo
references.
12
   A tax return could be prepared incorrectly though the preparer followed all quality assurance rules. Conversely, a
tax return could be prepared correctly though none of the quality assurance rules were followed.
                                                                                                             Page 9
                    Accuracy of Volunteer Tax Returns Continues to Improve, but
                    Better Controls Are Needed to Ensure Consistent Application
                                    of Procedures and Processes



Incorrectly prepared tax returns can increase the risk of taxpayers not receiving credits to which
they are entitled or receiving additional credits for which they do not qualify. This might also
create additional burden on taxpayers if the IRS later finds potential errors on the tax returns and
requires the taxpayers to face the demands of IRS audits.
Because we have already reported in prior audit reports that volunteers do not consistently use
the tools to ensure that all tax returns are prepared accurately, and the accuracy rate is improving,
we are making no recommendations at this time. We will continue to monitor the IRS’ efforts
during next year’s review.

Improvements Are Needed to the Return Reviews Used to Monitor
Program Effectiveness
Limited testing at six selected volunteer sites showed that quality review procedures were not
consistently followed. Some sites did not use quality review checksheets, did not include
economic stimulus payment13 tax returns for review, and did not verify taxpayer identification.
Return Reviews are unannounced visits to volunteer sites to evaluate tax law and tax return
accuracy. During a Return Review, IRS employees randomly select for review three tax returns
from those that have gone through the site’s preparation and quality review process but have not
yet been signed by the customers. The IRS reviewer uses the Quality Return Review Sheet
(Form 6729C) to check the prepared tax return for accuracy with the completed intake and
interview sheet, the customer’s supporting documentation, and the completed quality review
checksheet.
The SPEC function conducted a statistical sample of 963 Return Reviews during the 2008 Filing
Season and determined that 931 (97 percent) tax returns were correct. Of the 963 returns,
59 percent had been subject to a quality review process, and 95 percent included an intake and
interview sheet.
Due to an ongoing National Treasury Employees Union issue, reviewers were unable to use
scanners to obtain documentation for case files. However, our review of a sample of 91 Return
Review cases for which documentation was photocopied as part of the review process showed
that 43 cases (47 percent) had missing or illegible documents. Therefore, we could not validate
the accuracy of those returns. In addition, of the 91 cases sampled, only 19 (21 percent) included
the most recent version of Form 6729C (dated September 2007).
Without complete documentation, we could not determine the quality of the Return Reviews.
The importance of obtaining documentation during Return Reviews needs to be emphasized so


13
   The Economic Stimulus Act of 2008 (Pub. L. No. 110-185, 122 Stat. 613) was passed to provide economic
stimulus through recovery rebates to individuals, incentives for business investment, and an increase in conforming
and Federal Housing Authority loan limits.
                                                                                                           Page 10
                 Accuracy of Volunteer Tax Returns Continues to Improve, but
                 Better Controls Are Needed to Ensure Consistent Application
                                 of Procedures and Processes



that independent, third-party reviews can be conducted to ensure that procedures are consistently
followed.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should require that
the Return Review process be well documented, including using and retaining a review checklist,
so that external reviews can be conducted and results can be measured.
       Management’s Response: IRS management agreed with this recommendation. The
       SPEC function will implement a Centralized Return Review Cadre during the 2009 Filing
       Season. To ensure that consistent quality reviews are performed, the Cadre will consist
       of 25 employees specifically trained to perform Return Reviews. Procedures will be
       implemented to ensure that the Return Review process is well documented. The IRS will
       capture and retain Return Review documentation for subsequent external review by
       scanning and electronically storing all documents pertinent to the Review.

Current Procedures Need to Be Strengthened to Ensure the Integrity
of the Volunteers
The SPEC function continues to show a commitment to improving the Volunteer Program return
preparation process to ensure the accurate preparation of tax returns. Accurate tax return
preparation establishes credibility and validates the integrity of the Program and its volunteers.
The IRS also has application processes and procedures in place to ensure that volunteer
applicants meet certain criteria and are trained.
However, these steps and processes do not ensure the integrity of volunteers, even though the
volunteers have access to taxpayers’ personal identifiable information such as Social Security
Numbers, driver licenses, and home addresses. The Social Security Number is the most widely
used identifier for Federal and State Governments and the private sector. It is used for
employment in the United States; to maintain a bank account or obtain credit; to receive Social
Security Administration and other Federal Government benefits; and, for most individuals, to file
a tax return. Because volunteers have access to taxpayer information, there is a potential risk of
identity theft.
In comparison to other organizations that require potential volunteers to be subject to a
background check, the IRS does not require its applicants to undergo a background check. The
IRS requires the following to ensure the integrity of its volunteers:
   •   Privacy and Confidentiality-A Public Trust (Publication 4299). This Publication serves
       as the central document for providing guidance covering the privacy, confidentiality, and
       security of all information received at VITA/TCE Program sites.


                                                                                          Page 11
                     Accuracy of Volunteer Tax Returns Continues to Improve, but
                     Better Controls Are Needed to Ensure Consistent Application
                                     of Procedures and Processes



     •   Sponsor Agreement (Form 13533). Sponsors must sign Form 13533. New Forms are
         requested from existing partners (or sponsors) when significant changes are made to
         Publication 4299. The SPEC function should also obtain a new Form 13533 when key
         personnel changes occur to ensure that the new individual is aware of the agreement in
         place.
     •   Volunteer Agreement Standards of Conduct – VITA/TCE Programs (Form 13615).
         Volunteers must annually sign Form 13615 before their volunteer service begins. These
         Forms are used to acknowledge receipt of and/or agreement to maintaining key principles
         concerning the privacy and confidentiality of the VITA and TCE Programs.
     •   Application Package and Guidelines for Managing a TCE Program (Publication 1101).
         This package contains current TCE Program guidelines. An applicant has to submit a
         Proposed Program Plan, which should include the steps that will be taken to ensure
         taxpayer privacy and to maintain the confidentiality of tax returns. In addition to signing
         the Form 13615, an applicant must sign various additional forms to indicate that he or she
         is taking all reasonable steps necessary to ensure that information provided by taxpayers
         remains confidential.
We obtained and reviewed a sample of 30 Forms 13533. Results showed that all 30 Forms were
appropriately signed. In addition, review of a sample of 30 volunteer sites with a total of
181 volunteers showed that only 2 volunteers (1 percent) did not sign Form 13615. Review of a
sample of 21 Proposed Program Plans for TCE Non-AARP volunteer sites showed that all
21 Plans contained the required narrative to ensure taxpayer privacy and confidentiality and were
appropriately dated by the sponsors.
Of the 179 volunteer agreements that were signed, 28 (16 percent) did not contain a signature
date or a legible date that we could verify. Because volunteers must sign Form 13615 before
they begin their volunteer service, we could not determine if this requirement was met with
Forms that had no dates.
Obtaining a signature on the current sponsor and volunteer agreements might not be sufficient to
ensure a volunteer’s integrity. In comparison, potential applicants for the IRS e-file Program14
are asked to sign the IRS Application to Participate in the IRS e-file Program (Form 8633),
which asks applicants if they have ever been convicted of a crime, failed to file personal tax
returns or pay tax liabilities, or been convicted of any criminal offense under the internal revenue
laws. If an applicant provides a “yes” response, he or she must attach an explanation to the
Form 8633. The applicant also signs the Form 8633 under penalty of perjury.




14
  The IRS e-file Program offers taxpayers an alternative to filing a traditional paper tax return. The e-file Program
enables taxpayers to send their tax returns to the IRS in an electronic format via an authorized IRS e-file Provider.
                                                                                                             Page 12
                 Accuracy of Volunteer Tax Returns Continues to Improve, but
                 Better Controls Are Needed to Ensure Consistent Application
                                 of Procedures and Processes



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Ensure that all Forms 13615 are signed and dated by volunteers prior to
the start of their service.
       Management’s Response: IRS management agreed with this recommendation. The
       SPEC function will place appropriate emphasis on volunteers signing and dating
       Form 13615 prior to the start of their service. In addition, this item will be a subject of
       discussion during the SPEC function’s Filing Season Readiness Training.
Recommendation 3: For the short term, revise Form 13615 to include a question to
determine whether the applicant has been convicted of a crime and have the applicant sign the
Form under penalty of perjury. For the long term, the Commissioner should conduct a study to
evaluate the applicability and feasibility of standards used by other volunteer organizations.
       Management’s Response: IRS management agreed, in part, with this
       recommendation. As stated in the report, revising Form 13615 to include a question to
       determine whether an applicant has been convicted of a crime might not ensure volunteer
       integrity. The SPEC function will not immediately revise Form 13615. However, it will
       discuss this issue with its partners because the volunteers work for them and not directly
       for the IRS. The IRS will conduct a study with its partners to determine and evaluate the
       impact of adding this additional question to Form 13615 and associated requirements of
       such a disclosure. As part of this study, the IRS will work with us to provide any analysis
       or research performed in making this recommendation.

Some Volunteer Program Sites Offer Refund Anticipation Loans to
Taxpayers
A RAL is a short-term loan secured by a taxpayer’s expected tax refund. While some Volunteer
Program sites offer RALs to taxpayers, IRS oversight in this area is insufficient. The
SPEC function could not provide the number of Volunteer Program sites or a list of sites that
offer RALs. In addition, the VITA Program volunteers cannot input RAL indicators on taxpayer
accounts for those who applied for or obtained them when e-filing the tax returns. When a
taxpayer pays a preparer to complete and file a tax return, the IRS requires the preparer to input a
RAL indicator on the account before e-filing the tax return with the IRS.
The IRS stated that the Loans offered by Volunteer Sites are significantly lower in fees and
interest and are intended to be an alternative to the higher costs of a traditional RAL.
SPEC function management explained that many of their partner organizations have pooled
resources to form more than 300 Community-Based Coalitions. As an adjunct to free return
preparation, Coalitions often engage financial institutions in their partnerships to provide

                                                                                            Page 13
                    Accuracy of Volunteer Tax Returns Continues to Improve, but
                    Better Controls Are Needed to Ensure Consistent Application
                                    of Procedures and Processes



checking accounts or loans to taxpayers who need them. Some partners and Coalitions have
extended these services to provide financial literacy and application assistance with other Federal
or State Government programs. IRS partners are realistic about the marketplace and have
developed options, including alternative RALs, to meet taxpayer needs and expectations.
Further, while the SPEC function does not endorse or market RALs, it acknowledges the options
being offered to its customers. While partners strongly encourage taxpayers to wait for the
normal 7-day to 10-day processing period for e-filing and direct deposit, they are ready to offer
alternative products to meet the needs of customers with critical financial needs. This additional
option, which is rarely used due to significant education efforts by the partners, provides a
low-cost alternative to possibly being “victimized” by the traditional for-profit marketplace.
Although the Loan is a contract between the taxpayer and a lender, and the IRS is not involved in
this contract, the IRS does monitor Electronic Return Originators15 for their RAL marketing
practices. However, there is currently no monitoring of volunteers who provide these Loans to
taxpayers. In addition, SPEC function management explained that the indicator field is blocked
and cannot be updated by the volunteers. Without a method to track and control the Volunteer
Program RALs, the IRS increases the risks that 1) this aspect of the Volunteer Program is not
being monitored for quality performance and 2) regulations are not being consistently followed.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 4: Include a requirement in the Volunteer Program Form 13533 that
applicants document whether they will be offering RALs at their volunteer sites and designate
those sites. The applicants should be required to include details of the RALs offered, including
the fees and interest rate charged, financial institution(s) involved, and marketing of the Loans.
        Management’s Response: IRS management agreed with this recommendation. The
        SPEC function will add a question to Form 13533 to identify other products and services
        being offered by Volunteer Program sites and will obtain this information from new sites
        when they complete a Form 13533. It will include a similar question in the site review
        process with respect to existing partners. If RALs are offered, the SPEC function will
        request information from the partner regarding the fees, interest rate charged, financial
        institution(s) involved, and marketing products/strategies. The IRS does not wish to
        endorse RALs or other bank products by specifically asking if the site offers RALs
        because the IRS promotes free income tax preparation.



15
  Electronic Return Originators originate the electronic submission of income tax returns to the IRS. An Electronic
Return Originator electronically submits income tax returns that are either prepared by the Electronic Return
Originator’s firm or collected from a taxpayer.
                                                                                                          Page 14
                 Accuracy of Volunteer Tax Returns Continues to Improve, but
                 Better Controls Are Needed to Ensure Consistent Application
                                 of Procedures and Processes



Recommendation 5: Require that the SPEC function ensure that volunteers are able to input
the RAL indicator when transmitting the tax returns to the IRS. In addition, the SPEC function
should include this indicator on its management information system used to control the
Volunteer Program.
       Management’s Response: IRS management disagreed with the recommendation to
       ensure that volunteers are able to activate the RAL indicator in the commercial software
       used by volunteers to prepare tax returns when transmitting tax returns to the IRS. If the
       SPEC function turned on the RAL indicator at this time, the downstream impact to
       partners and their established processes might be negative. The IRS software contract
       would have to be modified because activation of the RAL indicator is precluded by the
       current contract. Activating the RAL indicator would result in additional applications
       and fees that could be passed on to the partners and/or taxpayers. Inputting the indicator
       requires that the partner use the approved banks of the software provider rather than a
       bank with which the partner might have negotiated lower fees. All of these factors must
       be thoroughly investigated and analyzed and any risks must be identified before the IRS
       can determine whether this action will provide the desired results.
       The SPEC function will request changes to its management information system (the
       SPEC Taxpayer Assistance Reporting System) to add a field that can be used to identify
       sites offering RALs.
       Office of Audit Comment: We agree that the IRS needs to consider the additional
       costs and investigate further before making a final determination. However, the IRS
       currently cannot determine which sites offer RALs or the number of--and/or which--
       taxpayers who visit VITA sites to obtain RALs to determine their effect on the Volunteer
       Program and to ensure that all procedures and regulations are followed.
Recommendation 6: Ensure that site visits include a review of RALs to ensure that the Loans
are being offered and filed consistently with written guidance issued by the IRS.
       Management’s Response: IRS management agreed with this recommendation.
       They agreed that they should monitor preparers, including volunteer preparers, offering
       RALs or similar bank products to ensure their compliance with IRS regulations and
       procedures. However, management believes that this should be accomplished within the
       parameters of existing IRS oversight programs. The Small Business/Self-Employed
       Division Examination Special Processes function is responsible for and currently
       conducts reviews of Electronic Return Originators, including those that offer RALs. The
       reviews are selected from information supplied by an Electronic Tax Administration
       function database. The VITA sites are included in this population and are subject to
       review. The Small Business/Self-Employed Division coordinates its reviews of VITA
       sites with the local SPEC function Territory Manager. The basic selection criteria used
       include sites that file 100 or more returns and have a 25 percent reject rate, or those for

                                                                                          Page 15
         Accuracy of Volunteer Tax Returns Continues to Improve, but
         Better Controls Are Needed to Ensure Consistent Application
                         of Procedures and Processes



which a complaint has been received. The presence of a RAL indicator is not part of the
selection criteria. However, if RALs are found to be offered, a checklist is completed.
Because VITA sites are included in the Small Business/Self-Employed Division
Electronic Return Originator reviews, sufficient oversight exists in this area.
Office of Audit Comment: Although the IRS agreed with this recommendation, it
stated that overseeing the volunteers offering RALs would be accomplished within the
parameters of an existing program in the Small Business/Self-Employed Division. We
will follow up on this action during the 2009 Filing Season audit of the Volunteer
Program.




                                                                                Page 16
                    Accuracy of Volunteer Tax Returns Continues to Improve, but
                    Better Controls Are Needed to Ensure Consistent Application
                                    of Procedures and Processes



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether taxpayers receive quality service,
including the accurate preparation of their income tax returns, when visiting Volunteer Program1
sites. We also determined whether the IRS makes adequate efforts to ensure the integrity of the
volunteers participating in the Volunteer Program. This review was limited to community-based
VITA Program sites and TCE Program sites sponsored by the AARP.2 To accomplish the
objective, we:
I.      Determined whether Volunteer Program sites were accurately preparing individual
        income tax returns based on facts provided by taxpayers.
        A. Selected a judgmental sample of 36 VITA/Colocated VITA Program3 and AARP sites
           nationwide and had tax returns prepared. We selected sites in 12 cities, with a total of
           3 VITA/Colocated VITA Program and AARP sites being selected in each city. Site
           selection was based on the volume of tax returns prepared by the sites, auditor
           resources, and the sites’ proximity to major cities. The population of Volunteer
           Program sites is not fixed because sites open and close throughout the filing season.4
           Therefore, we could not determine the total population of Volunteer Program sites
           and could not select a statistical sample.5
        B. At each site, an auditor:
             1. Asked to have his or her individual income tax return prepared using the
                information from the scenarios we had prepared to address questions included on
                intake sheets or asked by the volunteer preparing the tax return.
             2. Documented specific information as it relates to the preparation of the tax return.
        C. Determined whether the tax return prepared by the volunteer was correct.
        D. If a tax return was prepared incorrectly, determined why the return was prepared
           incorrectly and calculated the potential impact on taxpayers and tax revenue.




1
  The IRS Volunteer Program includes the VITA and TCE Programs.
2
  Formerly the American Association of Retired Persons.
3
  Some community-based VITA sites are located in buildings occupied by one or more IRS offices.
4
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
5
  See Appendix V for a list of cities and States selected.
                                                                                                          Page 17
                 Accuracy of Volunteer Tax Returns Continues to Improve, but
                 Better Controls Are Needed to Ensure Consistent Application
                                 of Procedures and Processes



II.    Assessed the effectiveness of the IRS process to determine the Volunteer Program
       accuracy rate by selecting a judgmental sample of 91 completed Return Reviews from a
       total population of 260 Review cases to assess the completeness and accuracy of the
       completed Return Reviews. Because of limited resources, we performed limited testing
       of 6 judgmentally selected volunteer sites from a total population of 350 sites included in
       a Statistics of Income Division review plan to determine whether quality review
       procedures were consistently followed
III.   Assessed the adequacy of efforts to ensure the integrity of the volunteers participating in
       the Volunteer Program. We did not independently validate the reliability of the IRS data
       used in this Step because we did not need to do so to achieve our audit objective. We
       determined the desired volume of volunteer sites and Proposed Program Plans required
       for review and selected a random sample to ensure there was an equal chance of
       volunteer sites and Proposed Program Plans being selected
       A. Selected a random sample of 30 volunteer sites from a database with a total
          population of 11,754 open volunteer sites provided by the IRS to determine whether a
          Sponsor Agreement (Form 13533) was signed. The random number generator in
          Enterprise Guide was used to generate the random sample.
       B. Selected a random sample of 30 volunteer sites from a database with a total
          population of 11,754 open volunteer sites provided by the IRS to determine whether
          volunteers signed a Volunteer Agreement Standards of Conduct – VITA/TCE
          Programs (Form 13615). The random number generator in Enterprise Guide was
          used to generate the random sample.
       C. Selected a random sample of 21 Proposed Program Plans for TCE Non-AARP
          volunteer sites from a database with a total population of 11,754 open volunteer sites
          provided by the IRS to determine whether all Plans contained the required narrative
          to ensure taxpayer privacy and to maintain the confidentiality of the tax returns
          prepared by the volunteers. The random number generator in Enterprise Guide was
          used to generate the random sample.
IV.    Determined whether RALs are offered at Volunteer Program sites.
       A. Determined whether the IRS controlled and tracked the RALs offered at Volunteer
          Program sites.
       B. Determined the IRS’ oversight of the RALs offered at Volunteer Program sites.




                                                                                           Page 18
                Accuracy of Volunteer Tax Returns Continues to Improve, but
                Better Controls Are Needed to Ensure Consistent Application
                                of Procedures and Processes



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Director
Lena Dietles, Audit Manager
Roberta Fuller, Lead Auditor
Pamela DeSimone, Senior Auditor
Tracy Harper, Senior Auditor
Robert Howes, Senior Auditor
Kathy Coote, Auditor
Jerry Douglas, Auditor
Mary Keyes, Auditor
Geraldine Vaughn, Auditor




                                                                                   Page 19
                Accuracy of Volunteer Tax Returns Continues to Improve, but
                Better Controls Are Needed to Ensure Consistent Application
                                of Procedures and Processes



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
National Taxpayer Advocate TA
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 20
                     Accuracy of Volunteer Tax Returns Continues to Improve, but
                     Better Controls Are Needed to Ensure Consistent Application
                                     of Procedures and Processes



                                                                                        Appendix IV

          General Characteristics of Tax Year 2006 Tax
           Returns Prepared by the Volunteer Program                                          1




                                                                              TCE (AARP2 Under
                                                          VITA                 60 Years of Age)
                                              Tax                             Tax
                                             Return         Percentage       Return    Percentage
               Type of Tax Return            Volume          of Total        Volume     of Total

         U.S. Individual Income Tax
         Return (Form 1040)                    681,703              81.74%   404,410       94.78%
         Income Tax Return for Single
         and Joint Filers With No
         Dependents (Form 1040EZ)               66,448              7.97%     14,502        3.40%
         U.S. Individual Income Tax
         Return (Form 1040A)                    77,413              9.28%      7,258        1.70%
         U.S. Nonresident Alien Income
         Tax Return (Form 1040NR)                  237              0.03%         27        0.01%
         U.S. Income Tax Return for
         Certain Nonresident Aliens With
         No Dependents
         (Form 1040NR-EZ)                         7,515             0.90%       408         0.10%
         U.S. Individual Income Tax
         Return (PC) (Form 1040PC)                 637              0.08%         58        0.01%
         U.S. Self-Employment Tax
         Return – Puerto Rico
         (Form 1040-PR)                               8             0.00%          0        0.00%




1
    The IRS Volunteer Program includes the VITA and TCE Programs.
2
    Formerly the American Association of Retired Persons.
                                                                                                  Page 21
                 Accuracy of Volunteer Tax Returns Continues to Improve, but
                 Better Controls Are Needed to Ensure Consistent Application
                                 of Procedures and Processes



                                                                        TCE (AARP Under 60 Years
                                        VITA                                    of Age)

                                                     Percentage                                 Percentage
                                         Tax           of Tax                         Tax         of Tax
Refund Due/               Dollar        Return         Return         Dollar         Return       Return
Balance Due               Totals        Volume        Volume          Totals         Volume      Volume

Refund Due        $1,012,288,376        743,048          89.10%   $486,692,571        374,217       87.71%

Balance Due          $68,175,600         86,231          10.34%      $44,057,205       50,946       11.94%

Breakeven                          $0     4,682          0.56%                 $0       1,500        0.35%




                                                                         TCE (AARP Under 60 Years
                                                  VITA                           of Age)
  Filing Status/Dependent
           Claims                   Tax Return       Percentage of       Tax Return          Percentage of
                                     Volume              Total            Volume                 Total

 Single                                  492,154            59.01%              263,957            61.87%

 Head of Household                       175,631            21.06%                  67,696         15.87%

 Married Filing Jointly                  149,602            17.94%                  85,710         20.09%

 Widow(er) With Dependent
 Child                                         426           0.05%                    288           0.07%

 Married Filing Separately
 and Spouse Is Required to
 File                                     16,056             1.93%                   8,994          2.11%

 Married Filing Separately
 and Spouse Is Not
 Required to File                               92           0.01%                     18           0.00%

 Tax Return Prepared With
 One or More Dependent
 Exemptions, Including
 Parents                                 261,940            31.41%              122,147            28.63%

 Tax Return Prepared With
 No Dependent Exemptions                 572,021            68.59%              304,516            71.37%



                                                                                                     Page 22
                        Accuracy of Volunteer Tax Returns Continues to Improve, but
                        Better Controls Are Needed to Ensure Consistent Application
                                        of Procedures and Processes



                                                                           TCE (AARP Under 60 Years
                                                      VITA                         of Age)
                                        Tax Return            Dollar       Tax Return             Dollar
           Credits Claimed               Volume               Totals        Volume                Totals

     Earned Income Tax*                      278,119      $404,510,906            132,401      $155,173,913
     Additional Child Tax*                   103,573         $93,039,544            41,026       $38,221,152
     Child Tax*                                95,347        $82,879,735            52,909       $55,556,346
     Retirement Savings
     Contributions*                            48,032         $7,196,291            29,424        $4,508,488
     Education                                 40,293        $25,276,395            22,564       $14,442,143
     Child and Dependent Care*                 20,224         $9,304,657            10,039        $4,466,230
     Other (Adoption, Gas, and
     Health Coverage Tax)                         163          $248,519                117          $201,164
    * = This credit was included in our test scenarios.

                                                                           TCE (AARP Under 60 Years
                                                      VITA                         of Age)
                                        Tax Return            Dollar       Tax Return             Dollar
                Income                   Volume               Totals        Volume                Totals

     Average Income3                         833,961            $17,856           426,663            $22,081
                    4
     Other Income                              31,884     $106,409,882              16,355       $48,863,609
    Source: IRS management information system containing all Tax Year 2006 tax return data.




3
 Average Income was determined in Enterprise Guide by taking the average of the total income of all taxpayers.
4
 Other Income is a line item on the Form 1040 series tax returns that is not reported on any tax schedules or
anywhere else on the tax returns.
                                                                                                        Page 23
                  Accuracy of Volunteer Tax Returns Continues to Improve, but
                  Better Controls Are Needed to Ensure Consistent Application
                                  of Procedures and Processes



                                                                  Appendix V

                         Cities and States Visited
                      to Have Tax Returns Prepared

•   Brooklyn, New York
•   Charlestown/Fall River/Roxbury, Massachusetts
•   Cleveland, Ohio
•   Detroit, Michigan
•   Houston, Texas
•   Jacksonville, Florida
•   Los Angeles, California
•   Pittsburgh, Pennsylvania
•   Saint Paul, Minnesota
•   Springfield, Illinois
•   Tucson, Arizona
•   Winston-Salem, North Carolina




                                                                         Page 24
                        Accuracy of Volunteer Tax Returns Continues to Improve, but
                        Better Controls Are Needed to Ensure Consistent Application
                                        of Procedures and Processes



                                                                                           Appendix VI

            Results of Tax Returns Incorrectly Prepared
                    at Volunteer Program Sites                          1




                                                 Volunteer     Correct
                                                   Site        Refund
                                                 Refund or       or           Amount of      Amount of
                                     Type of      Balance      Balance       Understated     Overstated
       Volunteer Sites Visited        Site         Due          Due            Refund         Refund
    Cleveland, Ohio                   VITA            $1,170        $2,218        -$1,048
                                             2
    Cleveland, Ohio                  AARP             $1,549        $2,218          -$669
    Detroit, Michigan                 AARP            $1,504        $2,218          -$714
    Detroit, Michigan                 VITA            $1,504        $2,218          -$714
    Houston, Texas                    VITA            $1,599        $2,218          -$619
    Houston, Texas                    AARP            $1,839        $2,218          -$379
    Jacksonville, Florida             VITA             $103           $98                            $5
    Los Angeles, California           VITA            $2,093        $2,218          -$125
    Roxbury, Massachusetts            VITA            $1,818        $2,218          -$400
    Tucson, Arizona                   VITA            $2,203        $2,218           -$15
    Winston-Salem, North Carolina     VITA            $6,061          $98                        $5,963
 Totals:                                                                          -$4,683        $5,968
Source: Anonymous visits performed by our auditors.




1
    The IRS Volunteer Program includes the VITA and TCE Programs.
2
    Formerly the American Association of Retired Persons.
                                                                                                 Page 25
                      Accuracy of Volunteer Tax Returns Continues to Improve, but
                      Better Controls Are Needed to Ensure Consistent Application
                                      of Procedures and Processes



                                                                                              Appendix VII

                   Accuracy of Eligibility Determinations




    Source: Tax returns prepared for our auditors by Volunteer Program volunteers during the 2008 Filing Season.1




1
  The IRS Volunteer Program includes the VITA and TCE Programs. The filing season is the period from January
through mid-April when most individual income tax returns are filed.
                                                                                                          Page 26
                Accuracy of Volunteer Tax Returns Continues to Improve, but
                Better Controls Are Needed to Ensure Consistent Application
                                of Procedures and Processes



                                                                           Appendix VIII


  Treasury Inspector General for Tax Administration
       Audit Reports on the Volunteer Return
                Preparation Program

Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue
Service Volunteer Income Tax Assistance Sites (Reference Number 2004-40-154, dated
August 2004).
Significant Improvements Have Been Made in the Oversight of the Volunteer Income Tax
Assistance Program, but Continued Effort Is Needed to Ensure the Accuracy of Services
Provided (Reference Number 2006-40-004, dated November 2005).
Oversight and Accuracy of Tax Returns Continue to Be Problems for the Volunteer Income Tax
Assistance Program (Reference Number 2006-40-125, dated August 31, 2006).
Accuracy of Volunteer Tax Returns Is Improving, but Procedures Are Often Not Followed
(Reference Number 2007-40-137, dated August 29, 2007).




                                                                                        Page 27
    Accuracy of Volunteer Tax Returns Continues to Improve, but
    Better Controls Are Needed to Ensure Consistent Application
                    of Procedures and Processes



                                                    Appendix IX

Management’s Response to the Draft Report




                                                           Page 28
Accuracy of Volunteer Tax Returns Continues to Improve, but
Better Controls Are Needed to Ensure Consistent Application
                of Procedures and Processes




                                                       Page 29
Accuracy of Volunteer Tax Returns Continues to Improve, but
Better Controls Are Needed to Ensure Consistent Application
                of Procedures and Processes




                                                       Page 30
Accuracy of Volunteer Tax Returns Continues to Improve, but
Better Controls Are Needed to Ensure Consistent Application
                of Procedures and Processes




                                                       Page 31
Accuracy of Volunteer Tax Returns Continues to Improve, but
Better Controls Are Needed to Ensure Consistent Application
                of Procedures and Processes




                                                       Page 32
Accuracy of Volunteer Tax Returns Continues to Improve, but
Better Controls Are Needed to Ensure Consistent Application
                of Procedures and Processes




                                                       Page 33
Accuracy of Volunteer Tax Returns Continues to Improve, but
Better Controls Are Needed to Ensure Consistent Application
                of Procedures and Processes




                                                       Page 34
